ES, IG-00-011, Spare Parts Quality Assurance for the Space Shuttle
SPARE PARTS QUALITY ASSURANCE
FOR THE SPACE SHUTTLE
IG-00-011
Executive Summary
Background
The Space Shuttle Program (SSP) Manager, located at the Lyndon B. Johnson
Space Center (Johnson), is responsible for quality assurance of the Space
Shuttle Program.  The Shuttle is composed of five elements: orbiter vehicles,
main engines, solid rocket boosters and motors, and external tanks.  NASA
has awarded contracts for each of the five Shuttle elements.  For example,
on September 26, 1996, NASA entered into the Space Flight Operations Contract
(SFOC) with the United Space Alliance (USA)(1) for Shuttle operations including
acquiring, building, and repairing spare parts for the orbiter vehicle.
Johnson administers the SFOC, however, USA's procurement and logistics
responsibilities are carried out primarily by personnel at the
John F. Kennedy Space Center (Kennedy) or the NASA Shuttle Logistics Depot
at Cape Canaveral, Florida.  USA maintains about 200,000 spare parts for the
orbiter fleet at the Depot.  From October 1998 through June 1999, NASA paid
USA about $36 million for procured or built spare parts and $48 million for
repaired spare parts.
The Office of Management and Budget (OMB) directs Federal
agencies to develop and use quality assurance surveillance plans in contract
administration.  The Federal Acquisition Regulation (FAR), Part 46, "Quality
Assurance," requires that NASA perform Government quality assurance functions
for all Space Shuttle flight hardware to ensure compliance with contract
requirements.  The SSP Manager relies on NASA quality assurance personnel
and the Defense Contract Management Command (DCMC)(2) to perform
this function.
Objectives
Our overall objective was to determine whether the quality assurance
processes for Space Shuttle spare parts were effective and efficient.
Specifically, we determined whether NASA had:
utilized quality assurance information in the acquisition of
spare parts,
established and implemented adequate policies for quality
assurance of spare parts, and
ensured effective performance of acceptance testing.
We limited our review of the Space Shuttle to orbiter
vehicle spare parts due to the complexity and size of the five Space Shuttle
elements.  We will address whether NASA has taken appropriate actions with
regard to quality deficiencies under a separate audit.
Details on the objectives, scope, and methodology for this
audit are in Appendix A.
Results of Audit
Quality assurance processes for the orbiter vehicles were effective but not
always efficient.  USA appropriately considered quality assurance requirements
in the selection of orbiter vehicle flight hardware suppliers.  In keeping with
Government downsizing and the advent of the performance-based(3) SFOC, the SSP
Manager and NASA safety and mission assurance officials reduced Government Mandatory
Inspection Points (inspection points)(4) for Shuttle processing and vehicle
manufacturing and took significant steps to ensure the safety of Shuttle
operations.  (Appendix B provides details on those steps.)  However, the SSP
Manager has not updated or streamlined criteria for eliminating unnecessary
inspection points at spare parts suppliers and has not consolidated quality assurance
requirements using a program-level approach.  As a result, NASA has redundant
Government quality assurance resources at some locations that could be used
more efficiently to perform other quality assurance functions.
Recommendations
NASA management should establish policies and procedures to improve the
efficiency of quality assurance at the supplier level.  In particular,
management should:
Establish inspection point criteria at the supplier level
consistent with streamlined criteria established for Shuttle
processing and vehicle manufacturing to ensure efficient quality
assurance processes at supplier sites.
Consolidate use of Government quality personnel for the Space
Shuttle Program.
Management's Response
Management concurred with the finding that Government quality assurance
resources were effective.  However, the SSP plans to assess the Broad Area
Review (BAR)(5) findings and the applicability of the Kennedy processing
criteria by October 2000 to determine whether a change in Government
surveillance is advisable at this time.  Further, by October 2000, the SSP
plans to review the utilization of quality assurance personnel on a
program-level approach based on multiple contracts and space flight
centers.  The complete text of the response is in Appendix D.
Evaluation of Management's Response
Management's planned actions are nonresponsive to the recommendations.
Specifically, management did not state whether it concurred with the
recommendations or indicate whether the recommended, corrective actions
would be taken.  We agree that an assessment of the BAR findings may be
warranted to determine which criteria are appropriate.  However, management
should establish formal, written criteria for flight hardware suppliers
regardless of whether Government surveillance is changed.  Further, because
the SSP has multiple contracts and space flight centers, we maintain that a
consolidation of Government quality assurance resources is cost beneficial
and warranted.  Therefore, we request that management further review its
position on these matters and provide additional comments.
FOOTNOTES
1. USA, headquartered in Houston, Texas, is a Boeing/Lockheed Martin joint venture formed to conduct space flight operations for NASA.
2. NASA relies on DCMC, a division of the Defense Logistics Agency, Department of Defense, to provide Government contract administration services.
3. Performance-based contracting means structuring all aspects of an acquisition around the purpose of the work to be performed as opposed to either the manner by which the work is to be performed or broad and imprecise statements of work.
4. An inspection point is the point at which a Government representative has required an inspection to ensure that products and services meet quality and contract specification as required by FAR, Part 46, Quality Assurance.
5. In May 1999, the Chief of Staff of the Air Force directed that a team be established to examine recent expendable launch vehicle failures and provide a report that identifies causes of the failures and recommendations for changes in practices, procedures, and operations to prevent future failures.  Members of the team included senior active or retired Government officials with a wide range of expertise in space launch planning and operations representing national security, civil, and commercial sectors of the space community.  The BAR Report was issued in November 1999.
View Complete Report.